audit report
Return
to the USDOJ/OIG Home Page
United States Marshals Service Annual Financial StatementFiscal Year 1997
Report No. 98-21
September 1998
Office of the Inspector General
COMMENTARY AND SUMMARY
The United States Marshals Service (USMS) is a component of the U.S Department of Justice.  Its mission is to protect Federal courts and assist in the effective operation of the Federal Judicial System.  The primary responsibilities of the USMS are: the protection of judges and other participants in the judicial system; the execution of warrants and court orders; management over seized assets; and to secure custody and transportation of unsentenced prisoners.  The USMS is organized into four operating segments that support its mission: Judicial Security, Prisoner Services, Investigative Services, and Business Services.  For the fiscal year 1997, the USMS received direct and reimbursable funds totaling over $1.2 billion for its operations.
This audit report contains the Annual Financial Statement of the USMS for the fiscal year ended September 30, 1997.  The audit was performed by Price Waterhouse LLP, and resulted in a disclaimer of opinion on the Statement of Financial Position and Statement of Operations and Changes in Net Position.  The disclaimer of opinion was a result of the following:
Insufficient evidence to support the September 30, 1997, accounts payable balance and related expenses, appropriated capital used, unexpended appropriations, intragovernmental accounts receivable, and property and equipment.
The USMS' management did not meet the timetable for preparing auditable financial statements and providing supporting documentation.  Because of this, the auditors were unable to ascertain the adequacy of the overall presentation and disclosure of the financial statements.
The USMS' financial statements were previously included within the reporting entity of the Offices, Boards, and Divisions of the Department of Justice.  This reporting entity received a disclaimer of opinion on its consolidated statement of financial position for FY 1996 (Office of the Inspector General Report No. 97-33).  The auditors were not engaged to and did not audit the FY 1996 consolidated statement of operations and changes in net position.  Repeat conditions applicable to the USMS and their status can be found in the accompanying report.